HHS/OIG, Audit -"Review of Medicaid Disproportionate Share Funds Flow in the State of Missouri,"(A-07-02-02097)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Disproportionate Share Funds Flow in the State of
Missouri," (A-07-02-02097)
April 8, 2003
Complete
Text of Report is available in PDF format (620 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to review
the role of the Missouri Hospital Association (MHA) and its subsidiary corporation
MHA Management Services Corporation (MHA/MSC), in the disbursement of Medicaid
disproportionate share (DSH) funds to hospital providers.  A further objective
was to determine whether DSH funds were received by Missouri hospitals in accordance
with federal regulations and the Missouri Medicaid State plan (State plan).  During
the three-year period of our review, the State of Missouri claimed $1.5 billion
in federal financial participation (FFP) for DSH payments to hospitals.  We
found that Missouri hospitals receive DSH payments in accordance with federal
regulations and the State plan.  However, subsequent voluntary redistributions
of DSH funds by the MHA/MSC result in DSH funds being used to support Missouris
Federal Reimbursement Allowance (FRA) program rather than to provide financial
support to hospitals that serve a disproportionate share of Medicaid patients.